No. 20-7557

In the Supreme Court of the United States

 

 

Wendy Alison Nora,
Petitioner,
v.

Office of Lawyer Regulation,
Respondent.

 

 

On Petition for a Writ of Certiorari to
the Supreme Court of Wisconsin

 

 

RULE 33.1(h) CERTIFICATE OF COMPLIANCE
WITH WORD LIMITATIONS FOR BRIEF OF
AMICUS CURIAE

 

 

Rhonda Hernandez, a member of the Bar of this
Court, certifies that the Petition for Writ of Certiorari
complies with the word limitations set by Rule 33.1(g),
according to the WordPerfect X6 word count tool which
was set to include footnotes, and that the Amicus Curiae
Brief consists of 3,116 words.

Dated at Galveston, Texas this 26" day of April, 2021.

Rhonda Hernandez
Counsel of Record for Amicus Curiae
Hernandez Law Office
P.O. Box 16924
Galveston, Texas 77552
Telephone:(409) 939-4546
Email:Rhonda.Hdz@gmail.com

 
